 Department of Health and Human Servces

         OFFICE OF

    INSPECTOR GENERA





     USE OF MEDICARE OFFSET
 AGREEMENTS AND EXCLUSIONS FOR
  NATIONAL HEALTH SERVICE CORPS
AND HEALTH EDUCATION ASSISTANCE
        LOAN DEFAULTERS





              .. SERVICE
           +t-"

                           Richard P. Kusserow
                           INSPECfOR GENERAL
      '0



             1t""dla
                               OEI-0- 91-O550
, .





                     EXE                  TIVE SUMMAR 

       PUROSE
       The purpse of this review is to examine the use of the Medicae offset agreements
       and exclusions on debt collection activities of the National Heath Service Corps
       scholarship, Physician Shortge Area scholarship and Heath Education Assistace
       Loan programs.

       BACKGROUN

       Medicare offset and exclusion procedures are not being employed against defaulters in
       the Deparment of Health and Human Services ' scholarship and loan programs for
       students in the heath professions. To date , the Public Heath Service (PHS), which is
       responsible for debt management activities , has not yet implemented the offset
       procedure , and has initiated the exclusion option against only one National Heath
       Service Corps (NHSC) scholarship defaulter.

       The Medicare offset and exclusion provisions pertn to three PHS scholarship and
       loan programs for students in the heath professions: the NHSC scholarship, the
       Physician Shortge Area (PSA) scholarship, and the Heath Education Assistace
       Loan (HEAL) programs. While most borrowers or scholarship recipients repay their
       debt or service obligation , some do not. In 1987 Congress enacted two
                                                                                  legislative
       authorities (discussed below) authorizing Medicae offset agreements to recover some
       of the financial loss and requiring exclusion from Medicae when defaulters refuse to
       enter into offset agreements or when they subsequently breach the offset agreements.

       In order to determine the effectiveness of these provisions we examined legislation
       collected program data , obtaned Offce of Genera Counsel legal opinions , and held
       discussions with offcials in the PHS and the Heath Care Financing Administration
       (HCFA). This information was collected in April 1991.
       FIINGS
                    The PHS has not entered into any offset agreements with
                    scholarship or loan   defaulters.

                    No further regulations   are required in order to   implement offset
                    procedures.

                    The PHS has failed to implement procedures to initiate exclusion.

                    The PHS need not await a prior judgment against       a defaulter in Federal
                    court before excluding   that defaulter from Medicare.
               Preliminary data suggests a considerable number of NHSC and HEAL
               defaulters are Medicare providers.

               Moneys collected through Medicare offsets from NHSC and HEAL
               defaulters are not returned to the programs , but must be deposited into
               the general fund of the Treasury.


RECOMMNDATIONS

Authori to Retu Recovered Mones to th Prm
The PHS should seek legislative authority to enable the Secretary to return money
recovered from NHSC and PSA scholarship defaulters to the program rather than to
the general fund of the Treasury. Additionally, the PHS should seek legislative
authority to enable the Secretary to return money recovered from HEAL defaulters
through Medicare offsets to the SLIF fund rather than the general fund of the
Treasury. This would provide continuing support for program goals and objectives.

Medare Offet Ageeme

The PHS should immediately offer offset agreements to loan and scholarship
defaulters and refer successfully negotiated agreements to HCF A for implementation.

The HCF A should take immediate action to implement offset procedures as
authoried in Section 1892 of the Social Security Act.

Mediare Exluns

The PHS should refer to the ala for exclusion those cases where an offset agree:ment
cannot be negotiated within 90 days of the initial offer or is subsequently breached
concurrently with referring the case to the Department of Justice for initiation of a
collection action.



COMMNT
The HCFA and ASPE concurred with our recommendations. PHS agreed in prindrl
but believes that it does not need new legislation to return recovered funds to the:
programs and prefers to delay referrals to ala until the Department of Justice    ct.s
on them. We continue to believe that legislation is needed and that concurrent
referrals should be made.
          ..............
             .........   ......................................
         ..........................................
                       ......                    . .................
               .... ................................
                              ........... .........      . . ...........
                               ......... ..................  ....
                                                               . .. ...........
                                                   . . ...........
                                                               ..      .. .. .. .....
                                                                                ....
          . . . . . . . . . . . . . . . . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. . .




               TABLE OF CONTENTS

EXCU SUMY
INODUCTON


  Backgound


FIINGS

RECOMMATIONS




MPENIX A .
                                                                               , "





                          INTRODUCTION

PUROSE
The purpose of this review is to examine the use of the Medicare offset agreements
and exclusions on debt collection activities of the National Heath Service Corps
scholarship, Physician Shortge Area scholarship and Heath Education            Assistace
Loan programs.

BACKGROUN

Medicare offset and exclusion procedures   ar not being employed against defaulters in
the Deparment of Heath and Human Services ' scholarship and loan programs for
students in the heath professions. The Public Heath Service (PHS), which is
responsible for debt management activities, has not yet implemented the offset
procedure , and has initiated the exclusion option against only one National Heath
Service Corps (NHSC) scholarship defaulter.

The Medicare offset and exclusion  provisions pertn to three PHS scholarship and
loan programs for students in the health professions: the NHSC scholarship, the
Physician Shortge Area (PSA) scholarship, and the Heath Education Assistace
Loan (HEAL) programs. While most    borrowers or scholarship recipients repay their
debt or serVice obligation , some do not. In   1987 Congress enacted two legislative
authorities (discussed below) authorizing Medicare offset agreements to recover some
of the financial loss and requiring exclusion from Medicare when defaulters refuse to
enter into offset agreements or when they subsequently breach the offset agreements.

The Offce of Inspector General (OIG) released      a report in 1985 entitled      Medicare
or Medicaid Reimbursements to Doctors and Dentists Who Breached Their Contracts
with the National Health Service Corps Scholarship Program " (ACN: 12- 53225). This
report found that many NHSC defaulters received substatial amounts of
reimbursement from Medicare and Medicaid. The limited test showed that the
Deparment could have recovered about $2. 3      millon of the $9 millon in overdue
principal owed by these individuals through the offset. The OIG has consistently
supported the use of Medicare offsets to repay the defaulter   s obligation.


In order to determine the use of these provisions we examined legislation , collected
program data , obtained Offce of General Counsel legal opinions , and held discussions
with offcials in the PHS and the Health Care Financing Administration (HCFA).


Legislatve AUlhorities



The Medicare and Medicaid Patient and Program Protection Act of 1987 added
section 1128(b)(l4) of the Social Security Act (42 V. C. S I 320a- 7(b)(14), which
authorizes the: Secretary to exclude an individual from participation in Medicare
Medicaid , the Maternal and Child Health, and Social Servces block grant programs if
he/she has defaulted on a health education scholarship or loan secured by the
Department , provided the Secretary " has taken all reasonable steps available "       to

secure repayment. The individual is excluded from these programs until the loan is
repaid.

The Omnibus Budget Reconcilation Act of        1987 added section 1892 (42        e.

1395ccc) to the Social Security Act , which requires the Secretary to enter into a
Medicare offset agreement with defaulters. Under the terms of an offset agreement
the individual agrees to accept assignment for all Medicare servces and have
deductions made to repay the obligation , according to a formula agreed to by the
Secretary. Should    defaulters refuse to enter into such an agreement , or if the
defaulter later breaches the offset agreement , the Secretary is required to
 immediately exclude " the individual and to " immediately" refer the matter to the
Department of Justice , which must " imediately" commence a collection action.
If the individual entering into an offset agreement is employed by a Health
Maintenance Organition (HMO), Comprehensive Medical Plan (CMP), or group
practice , the Secretary will deduct amounts due from Medicare payments to the Hlvl0
CMP or group practice. These entities then have the right to collect the deducted
amouijt from the individual.

The exclusion authorities in the sections described above have been delegated by the
Secretary to the OIG.

NHSC Scholahip         Prm
The NHSC scholarship program offers a servce-connected scholarship which includes
a student s tuition and fees , a monthly stipend and a lump-sum payment to cover all
other reasonable educational expenses. It is in exchange for professional service in In
area of physician shortage after completion of medical training. A scholarship
recipient must serve 1 year for each year of support received , with a minimum of 2
years of servce and a maxmum of 4 years of service.

Each individual who has entered the scholarship program is required to provide€
servce in the full time clinical practice of the individual's profession as a member of€
the NHSC for the period of time specified in the individual's contract. Should the€
recipient breach the contract , that individual is to repay one to three time:s the€
scholarship amount plus interest and late charges , depending upon the: time the
individual defaults.

When a NHSC scholarship recipient defaults , the PHS attempts to collect the loan
amount , penalties and interest. The individual is first notified of the obligation to pay
within 1 year , is sent a reminder notice at 6 months , and finally is sent a demand
letter. If the individual does not respond , the PHS notifies the: credit bureau network.
generally notifies the Internal Revenue Service to offset any ta.x refunds , and rt:fers the
delinquent account to                commercial collection agency. If the collection agency is
unsuccessful after 6 months , the account is returned to the PHS. At that time the
PHS prepares the necessary justification and refers the account for collection to the
Department of Justice.

Since the program began in 1972, the NHSC has provided over $469 milion in
scholarships to 13 825 recipients. For the 1990- 1991 school year , there are 71
participants who will receive almost $5 milion in scholarships. Funding for the
program was cut sharply beginning in 1984, when only $6.3 milion was available for
scholarships. In subsequent years funding ranged between about $2 milion and $4
millon. It was not until the 1991- 1992 school year that funding significantly increased
to about $20 millon.

As of April 1, 1991 , 2738 NHSC scholarships were currently outstanding. Slightly
more than half of these , 1506 or 55 percent , are in good standing:

                    131 scholarship recipients were stil in school.

                   Another 920 individuals were repaying their servce obligation by practicing
                   in an area of physician shortage.


                    In 455 cases ,   repayment of servce was temporarily deferred.

However, 1232 NHSC scholarship recipients have breached their agreements and
defaulted on obligations of approximately $188. 9 milion. This amount consists of
principal and penalties of $99. 6 milion and accrued interest of $89. 3 milion. This
represents about nine percent of the individuals who have received scholarships since
the program began in 1972.

                    221 , valued at $27. 9 milion , while technically in default , are in statutory
                    repayment or in a grace period.

                    449 accounts , valued at $68. 5 milion , remain at PHS in various stages of

                    collection; that is, they are being prepared for referral to a collection

                    agency, are at a collection agency, or are being prepared for      referral to the

                    Department of Justice.

                    562 accounts , valued at $92. 7 milion , have been forwarded for collection to

                    the Department of Justice. Most are over 3 years old.


Medicare offset procedures could be initiated against the 1011               ddaulters representing
$161 milion whose loans are in different phases of the collection process. Of the
accounts , 78 percent have been delinquent for over 3 years. If offset agreements are
not obtained , exclusion procedures must be initiated for the:se ddaulters.
PSA Scholarship   Prm€
In existence for only 1 year, for those entering medical school in 1973 , the PSA
scholarship was offered in exchange for professional servce in an area of physician
shortage upon completion of medical training. Each student received no more than
$5000 in 1 year. The students determined before beginning school which   physician
shortage area they wanted to serve in after graduation. A scholarship recipient had to
serve 1 year for each year of support. Only about 100 students ever received a PSA
scholarship.

The PSA scholarship defaulters are subject to the same debt collection activities
NHSC defaulters.€

           There are at present 66 default cases at the PHS , representing about $2.
           milion.

           About six of these cases have been referred to the Department of Justice.€

 ledicare offset procedures could be initiated against the 66 defaulters representing
$2. 3 milion. If offset agreements are not obtained , exclusion procedures must be
initiated for these defaulters.

HEA Pram
The HEAL program is an insured- loan program administered by the Department for
students in the health professions. It insures loans made by nonfederal lending
institutions and is intended to operate without using Federal funds. Insurance
premiums deducted from the loan principal at the time of the award are deposited
into the Student Loan Insurance Fund (SLIF), which reimburses the holder of the loan
for the outstanding debt in the event of the borrower s default , death , disabilty or
bankruptcy. The HEAL program has been experiencing financial problems due to an
increasing default rate.

When a HEAL borrower defaults , the lender must initiate litigation in the State court.
If this collection effort is not successful , the SLIF reimburses the lender and the case
is referred to PHS. The PHS then attempts to have the defaulter repay his/her lo
obligation; if the individual does not respond , the same colkction activities PHS uses
with NHSC defaulters are used with HEAL defaulters.

Approximately $2. 7 bilion in HEAL loans are currently outstanding:

            $1.3 billon represents the amount in loans presently held by students stil! in
            training.

            Approximately $1 billion , represente:d by 45 364 loans , is currently heing
            repaid or is in forhearance or deferment status.
           Approximately $110 milion ,   represented by 6800 loans , is in delinquent
           .status - that is repayment is up to 150 days late. Should the account
           remain unpaid past those 150 days , these caes wil become defaults.

Approximately $268 millon , representing 7486 HEAL loans, are in default. The debt
vares widely among defaulters, raging from severa thousad dollars to over $100
thousad.

           1266 loans, representing $38. 6 milion , while technically in default ,   are in
           statutory repayment or in a grace period.

           2583 cases , representing approximately $98 milion , are in litigation at the
           State level.

           2077 default caes, representing about $71.4 milion are at the PHS , which
           is seeking repayment.

           1560 default claims ,
                             representing $60 milion , have been referred to the
           Deparment of Justice. Forty percent of these defaulters have judgments
           against them.



Medicare offset procedures could potentially be initiated against the 6220 defaulters
representing $229.4 milion.  If offset agreements are not obtaned ,    exclusion
procedures must be initiated for these defaulters.

MEODOLOGY
In order to determine the effectiveness of these provisions we examined legislation
collected program data , obtained Offce of Genera Counsel legal opinions, and held
discussions with offcials in the PHS and the Heath Care Financing Administration
(HCFA). This   information was collected in April 1991.
                                     FINDINGS

Th   PHS ha not ened            in an offset agree wi sclahip or loan deaulters.
The Congress enacted legislative authority in 1987 requirg the Department to offer
NHSC and    HE     defaulters a Medicare offet agreement to recover some of the
financial loss. However, the Department has not yet employed this option. Until
recently, the PHS and HCF A offcials had said that regulations governing the offset
process had to be published prior to offering the offet agreements. Therefore , the
process has not yet been implemented.

No   fu retins req        are          in ord to   imle offet predes.
Based on advice from the Offce of the General Counsel ,     we believe that HCFA has
the authority to implement offset procedures without    further regulations. This
conclusion is based on the followig factors:

     (1)   The terms of an offet agreement are detailed with suffcient
           specificity in Section 1892, thus making further regulatory
           guidance unnecessary;

     (2)   Since an offset agreement by its very nature is agreed to by the
           defaulting individual, there are no due process concerns raised
           by proceeding in the absence of further regulations; and

     (3)   Under 42 CFR                  HCF A has the regulatory authority
                                  401.607( d),
           to implement collections by offset. Section 1892 treats past- due
           scholarship and loan obligations as debts to HCF A for purposes
           of offset against Medicare payments , and then requires transfer
           of the amounts deducted from the Trust Fund to the General
           Treasury to be credited against the debtor s obligations. Exsting
           regulations are , therefore , broad enough to encompass the
           implementation of offsets under Section 1892.

Although the HCF A published a proposed rule on November 6 , 1990 , designed to
govern Medicare offset, HCFA' s proposed regulatory provisions are solely procedural
in nature. As HCF A' s authority to offset does not derive from or depend upon these
regulations , it does not need to await publication of final rules before implementing
offset procedures.
 Th PHS. ha failed to implenJ procedes to initiate exlusion.
 The PHS has failed to implement procedures for referrng caes to the GIG for
 exclusion of heath cae professionals from the Medicare and Medicaid programs           who
 have defaulted on a heath care education loan or scholarship obligation.


 The PHS has only used the exclusion option in one cae. An osteopath , who was an
 NHSC scholarship recipient , breached his service obligation in 1980 and was
 subsequently notified that he must repay the $14 641 borrowed from the program , plus
 interest. He refused all offers to repay his service or financial obligation and was
referred to the OIG for exclusion.

The PHS has taen      the position that it must first refer the cae to the Deparment of
Justice and obtan a judgement before it ca exercise the exclusion provision. In
addition , the PHS has rased the issue of timing of the exclusions under these
provisions. Specifically, whether it is legally advisable or permissible to delay exclusion
actions until after a judgement has been obtaned against the defaulter in court.
Further , the PHS contends it cannot pursue exclusion without speific regulations that
address implementation. (See        PHS comments for their current position)

Th PHS need not await a prior judgmenJ agains a defauer         in Fedral cour before
exluding tha defauter from        Medicare.

Based on advice from the Offce of the Genera Counsel , we believe Section 1892 

very clea about the PHS obligations: PHS must attempt to enter into a
                                                                             Medicare
offset agreement with each defaulter in the HEAL NHSC or PSA programs. If the
individual refuses to enter into such an agreement or later breaches the agreement,
the PHS must " immediately " refer the case to the Attorney Genera for a collection
action and simultaeously forward the matter to OIG which must " immediately
exclude " the individual from the Medicare program , until the entire past- due
obligation is repaid.

It is quite clea that the   may not await a court judgment of default before an
                            PHS

exclusion can be imposed. The statutory mandate to exclude , concurrent with referral
to the Deparment of Justice , makes it legally impermissible to delay exclusion until a
judgment is obtaned.

Preliminary daa suggests
Medicare providers.
                            a considerable    nur of NHSC an HEAL defauters are
An informal computer match with NHSC defaulters and Medicare data performed
severa yeas ago revealed that approximately 70 percent of the defaulters were
Medicare providers. However , there was no follow-up on this match , and no current
information is available on these defaulters.
The HCFA recently completed a computer match of a random sample of 100 HEAL
defaulters with Medicare data in order to determine how many are Medicare
providers. The information provided to HCF       A included the defaulter s name , health
discipline , debt balance , date of birth , last school attended , social security number amI
address. The match revealed that 38 are Medicare providers. However , the data
could not show whether these 38 are actually biling Medicare.

The computer match had two limitations: (1) it included specialties that do not
usually bil Medicare , such as dentistry and pediatrics; and (2) it did not identify
defaulters practicing as part of an HMO , CMP or group practice which is biling
Medicare. Thus , 38 percent may be a conservative estimate of the number of
defaulters being reimbursed by Medicare. Finally, the match did not identify those
providers biling Medicaid.€


The PHS plans to contact individual carrers to determine the earnings        of the 38
providers and then contact the providers to offer them an opportunity to offset their
Medicare reimbursement. Additionally, the PHS plans to implement a mechanism to
systematically refer cases to HCF A fqr offset. However , the PHS has not established a
time schedule to    carr     these plans.
                           out




Mones collcted though Medare offets from NHSC and HEA defaulers are not
retu   to th progrms, but mu be depo in th genl                   fu
                                                        of the Treas.

Under 31 U.    e.   3302 and related Comptroller General opinions , agencies are
ordinariy required to deposit all moneys they receive for the use of the United State:s
in the general fund of the Treasury as miscellaneous receipts. The only two general1y
recognized exceptions to this rule allow an agency to retain money it collects if it has
specific statutory authority to do so   if the moneys qualify as " refunds to
appropriations.

Under the Medicare offset provisions of 9 1892 of the Social Security Act , Congress
specifically authorized , as a credit toward past- due obligations , the transfer of funds
equal to the amount of the offset from the Trust Fund to the general fund in the
Treasury, 9 1892(  e). Thus , any moneys received through Medicare offset from those
who have defaulted on their NHSC scholarship obligations or health education loans
cannot be channelled back to those scholarship and loan programs , but must be
deposited into the general fund of the Treasury.


Moreover , any moneys recovered from NHSC defaulters , whe:ther through Medicare
offset agreements or some other means , are returned to the general fund of the
Treasury. In fiscal year 1990 , NHSC defaulters made cash repayments in the amount
of $9. 5 milion , which could not be returned to the NHSC scholarship program.


With respect to the HEAL program , however , there is an inconsistency worth noting.
Title VII , Subpart I of the PHS Act , in establishing a program of federally- insured
student loan assistance for health education , established a student loan insurance fund
 SLIF fund"   ) into which the Secretary must deposit all amounts received

connection with his/her operations under the loan program. By its terms , this would
appear to encompass any and all proceeds from collection activities against defaulters
including Medicare offsets authorized under S 1892. See S 734(a) of the PHS Act.
However, S 733(t) of the PHS Act references the offset                     1892 of the
                                                                             provisions of


Social Security Act, stating that " (p )rocedures for reduction of payments under the
Medicare program are provided under section 1892 of the Social Security Act. " Thus
the general statutory authority enacted in S 734 appears to be limited by the language
of S 733 and thereby made inapplicable to moneys collected by offset. Unlike all
other moneys , propert, or assets derived by the Secretary in connection with his
operation of the HEAL program , which are deposited in the SLIF fund, moneys
collected by offet would be deposited in the general fund of the Treasury as required
by Section 1892 of the Social Security Act.
                   RECOMMENDATIONS

Authorities to Return Recovered Moneys to the Program

1. The PHS should seek legislative authority to enable the Secretary to return money
    recovered from NHSC and PSA scholarship defaulters to the program rather      than
    to the general fund of the Treasury. Additionally, the PHS should seek legislative
    authority to enable the Secretary to return money recovered from HEAL
    defaulters through Medicare offsets to the SLIF fund rather than the general fund
    of the Treasury. This would provide continuing support for program goals and
    objectives.

Medare Ofset Agreemts
2. The PHS should immediately offer offset agreements to loan and scholarship
    defaulters and refer them to HCF A for implementation.

3. The HCF A should take immediate action to implement offset procedures as
    authoried in Section 1892 of the Social Security Act.

Medicare Exluns

4. The PHS    should refer to the OIG those cases where an offset agreement cannot
    be negotiated or is breached for exclusion concurrently with referrng the case to
    the Department of Justice   for initiation of a collection action.


Discun
Medicare offset agreements could potentially be entered into with 7361 defaulters of
the health education scholarship and loan programs , representing $392. 7 milion as
shown below.

                                    Numbers of                    Outstanding
               Program              Defaulters                     Balances


               NHSC                    1011                        $161
               PSA
               HEAL                    6220                          229.4

               TOTAL                   7297                        $392.

Presently, it is difficult to estimate the total dollar amount that might actually
recovered through offset agreements because of uncertainties concerning the degree of
participation in the Medicare and Me:dicaid programs by ddaulters. However
signifcant dollar amounts may be subject to such offsets in the NHSCscholarship
program and could be available for future scholarship recipients. For example , the
Federal povernment could collect as much as $7 milion dollars during the first year.
The $7 milion approximation    is based on a conservative estimate that 700 defaulters
are Medicare providers (70 percent of the 1011 NHSC defaulters) with the      Federal
Government collecting $10, 000 from each defaulter through Medicare offsets during
the fist year. The PHS currently projects that scholarship recipients will need an
average of 3 years support of approximately $82, 500. Thus , if this money was
returned to the scholarship program , funding would be available for 85 scholarship
recipients.

Additional benefits would accrue to the NHSC scholarship program and other health
education assistance programs through the so called "sentinel effect " whereby
implementation of offsets in some cases might discourage others from defaulting. This
would have the effect of increasing the number of NHSC recipients who fulfill their
obligations by servng in underserved areas.

FU            ACTONS

We wil in the coming months perform a match of loan and scholarship defaulters with
provider reimbursement data from State Medicaid programs , HMO, CMP and group
practices.

COMM
We received comments from PHS , HCFA and ASPE which concur , fully or in part
with our recommendations. These comments are included in Appendix A.

While PHS concurs with our recommendation that it should seek legislative authority
to return monies recovered from Medicare offsets from HEAL defaulters to the
HEAL program , it does not concur that it must do the same for the NHSC. The PHS
cites Section 338F of the Public Health Service Act as authorizing the establishment of
a NHSC Membership Replacement Fund , to which monies equal to the amounts
collected from defaulters may be paid to sites needing a replacement health
professional. However , Section 338F requires a Congressional appropriation before
being implemented , and such an appropriation seems unlikely due to time and fiscal
constraints. We therefore believe that PHS should seek additional legislative authority
to return monies collected from NHSC defaulters directly to the scholarship program.

The PHS advocates that , for certain practical reasons , referrals of NHSC and PSA
scholarship cases for exclusion be prioritized , with judgement cases being rderred first.
We understand that in the short run it is reasonable and prude:nt to prioritize:
judgment cases. However , we would emphasize that PHS is legally required by statllt
to exclude both pre-judgement and judgement defaulters. We feel there shaulL! he fair
and consistent treatment of all categories of defaulters. Since the:re is already a
substantial backlog of NHSC cases awaiting judgments , we feel any further da:lay for
payment should be avoided. We recommend that PHS develop the capacity to
simultaneously refer NHSC and PSA default cases to the OIG for Medicare
offset/exclusion and to the DOJ for the initiation of a collection   action.
APPENDIX A
  COMMENTS
:..                                                       -. ..                               --

         ,.""f €                                                                                   I-         r.l'a")€
                                                                                                                           P'JCI:C HeJith   SerJicc€
                      DEPART.\\ENT OF HEALTH &. HUl'1A'\ SER\'lCES                                   (1..nL      t. CA-€
                                                                                                      tt. ,,



      -t""...n €                                                                                   ;2.l1JI€ Memorandum€
             Date€    'SEP          2 4       199'€
             From€   Assistant Secretdry for                        Healt€

                                                 d i car e 0 f f set A g r e e men: s a :1 d
             Subjec 0 I G D           It Use 0 f
                                     aft R           p 0 r t
                     Exclusions for NH5C and HEAL Loan Defaulters, " OEI-02-91- 00550

                     Inspector General, 



                     At t a c h e d are the PHS co                 mm e n t s   on the sub         j e c t      d r aft    rep0rt.
                     concur fully or in part with all recommendations.                                                     The actions
                                                                                the s e                                     are des            rib e
                     t a ken 0            r   p 1   ann e d to imp 1 e men t              re co mm end a t ion s
                     in detail in                     the attached document.


                                                                            o.h1€
                                                                            Mason, M.              , Dr.


                     Attachment€




                             IG €

                      DIG-AS €
                      DIG-EI €
                      DIG-€
                      AIG-MP €
                      OGC/IG €

                      EXSEC €

                      DATSE €
                                                         I ..€
                                                      OFFICE OF

      PUBLIC HEALTH SERVICE (PHS) COH!1ENTS ON THEREPORT    " USE

     INSPECTOR GENERA (OIG)   lA..AGEl1ENT ADVISORY
                                                         NATIONJ...

    OF MEDICARE OFFSET AGREE!1ENTS AND EXCLUSIONS. FOR
   HEALTH SERVICE CORPS (NHSC) AND HEALTH EDUCATION ASSISTANCE

            LOAN DEFAULTERS (HEAL), " OEI- 02- 91- 00550


General Comment


The Health Resources and Services Administration (HRSA) has
                                                         and the
reviewed the OIG' s estimates of the numer of defaulters
amounts of outstanding scholarship or loan balances as set forth
in the report and has found them to be accurate. The figures
reported are in agreement with the data contained in HRSA'
quarterly reports.
OIG Recommendation
PHS should seek legislative authority to enable the Secretary to
return money recovered from NHSC and Physician Shortage Area
(PSA) scholarship defaulters to the program rather than to the
general fund of the Treasury. Addi           PHS should seek
                                      tionally


legislative authority to enable the Secretary to return money
recovered from HEA defaulters through Medicare offsets to the

Student Loan Insurance Fund (SLIF) rather than the general fund
of the Treasury.  This would provide continuing support for
program goals and objectives.


PHS Comment


We do not concur with the recommendation that PHS should seek

legislative authority to recover and re-use money paid back by

NHSC and PSA scholarship defaulters. PHS already has legislative

authority which would achieve essentially the same goal.


Section 338F of the Public Health Service Act authorizes the
establishment of the NHSC Member Replacement Fund, to which
monies equal to the amounts collected from defaulters may be
appropriated.  Amounts in the fund would be paid to si tes whic
need a replacement health professional as the result of a scholar
breaching his/her service commitment. The sites ' use of the
funds is restricted to purposes set       forth in the statute, i.   e.


recruiting and employment of a health professional to provide
primary health services to patients of the entity or to enter

into a contract with such a professional to provide the services

to the patients. PHS will submit to the Office of Management a

Budget appropriation language for fiscal year 1993 to implemen:

Section 338F.
We concur with the OIG recommendation that PHS should seek
legislative authority to return monies recovered by Medicare
                                                         , the
of f sets from HEAL defaulters to the      HEAL Program   (i.


SLIF).    Other HE   collections, Internal Revenue Service of f sets
and debtor payments after return of the note to the government


are presently returned directly to the HEA Program.
Furthe ore, such direct return would be consistent with
treatment of refunds and collections afforded other HRSA

Programs.
OIG Recommendation
PHS should Lmediately offer offset agreements to loan and
scholarship defaulters and refer successfully negotiated
agreements to the Health Care Financing Administration (HCFA) for
implementation.
PHS Comment

We concur. At a Departmental level meeting on May 30, 1991, PHS

received clarification that it can now offer Medicare offset

agreements to loan and scholarship defaulters. PHS will

expeditiously notify HCFA when agreements are negotiated with the
defaul ters so that HCFA may take the necessary Lmediate actions
to recover the appropriate amounts from the defaulters.

It should be noted, however, that the OIG' s estimated impact of

Medicare offset on HEA defaulters could be misleading. The only
HEA loans subject to offset are those on which we have paid a
claim from the    SLIF.
                      Our current procedure, once a claim has
been paid from the SLIF# is to notify the defaulter that the
Government is the holder of the note and advise the debtor that a

repayment agreement must be negotiated within 30 days. If there

is no agreement within that period, the debtor is given an

additional 60 days to enter into a Medicare offset agreement.
Failing that, the debtor will then be referred to the Department
of Justice (DOJ) for enforced collection as appropriate.

OIG Recommendation
PHS should refer to OIG for exclusion of those cases where an
offset agreement cannot be negotiated within 90 days of the
initial offer or is subsequently breached concurrently with
referring the case to the DOJ for initiation of a collection
action.
PHS Comment


We support the concept of Medicare offset/exclusion for
scholarship defaulters.   However to process the Medic3re
offset/exclusion through the OIG and the default simultaneously
through the DOJ does not appear in PSA and NHSC cases to be
practical for the following reasons:
        We expect that exclusion of pre-judgment NHSC and PSA
        scholarship defaulters, where the individual' s liability
        has not yet been established by a court, will be
        laborious, as the defaulter will undoubtedly use the
        exclusion hearing as another opportunity to challenge
        his/her default status. Litigating each case twice
        (through the administrative exclusion hearing and the
        Federal court litigation) would double the workload of
        the Office of General Counsel (OGC) and the program,
        while not disposing of more cases.

        Nei ther OGC nor the Scholarship Program currently has
        sufficient personnel to assist both regional attorneys
        handling exclusion hearings and DOJ attorneys handling
        the Federal court litigation. In both areas, litigation
        support would involve answering numerous questions about
        program operation and policies, investigating factual
        allegations made by defaulters, coming up with
        appropriate witnesses for hearings and trials, and
        providing documents (e. g. , copies of scholarship files
        regulations, policies, and NHSC placement lists.

        Nei ther OGC nor the program has the funds available to
        significantly expand the OGC staff assigned to
        scholarship default cases.   wo attorneys and a secretary
        in OGC are now funded by the agency just to handle the
        ongoing Federal court litigation involving scholarship
        defaulters.
        With simultaneous administrative and judicial
        proceedings comes an increased risk of inconsistent
        outcomes. If the  administrative hearings official were€
        to rule against the Departent (i.     overturn the€
                                            e.,

        default determination) the Governent'     s position €


        District Court could be severely compromised. We could€
        also receive resistance from DOJ about prosecuting a case€
        which the Department lost at the administrative level.

We believe that it makes sense, in terms of resource management,
to limit exclusions of scholarship defaulters to those defaulters
against whom we have judgments. However, we are legally
required , under the statute, to exclude pre-judgment defaulters
as well.   Therefore, we advocate that referrals of NHSC and PSA
scholarship cases be prioritized, with judgment cases referred
first.
The PHS will simultaneously refer defaulted HEA cases for
exclusion and collection to the OIG and DOJ respectively in those
instances when an offset agreement cannot be negotiated wi thin
90 days or when a negotiated offset agreement is subsequently
breached.
                                                                          =: ;:..-,
                 ..


                                                           Ofce of the   Se r.   :.'"                ..




                                                           Washington. D. C. 20201





                                  . JJN I 9 199€
                                                                          c- n 

                                                                            C) rn

                                                                            r. 0 C'
                                                                            ::-n€
TO:              Richard P. Kusserow
                                       rn €
                 Inspector General
                                                     vF' .....€
                                                                                        V/€




FROM:            Assistant Secretary for

                 Planning and Evaluation

                                                                     nus€
SUBJECT :€ Review of OIG Draft Management Advisory Report:
                 of Medicare Offset Agreements and Exclusions for
                 National Health Service Corps and Health Education
                 Assistance Loan Defaulters, " OEI-02-91-00550
Thank you for giving me the opportunityofto review your
                                          Medicare      draft
                                                   offset
management advisory report on the use
agreements and exclusions for National Health Service  corps
                                                    and Health
                                 (PSA) SCholarship,
Education Assistance Lean (HE) defaul ters.
(NHSC), Physician Shortage Area

                                     recent problems with

This is a timely report in light of
scholarship and loan program defaulters and the solvency of the

student Loan Insurance 
        Fud
                             (SLIF). Your findings and

recommendations point clearly to the need for the Department to

develop a more coherent and aggressive strategy for pursuing

offset agreements and exclusions. I understand that since the

draft report was completed the PHS has changed its position on

                                                         current€
the need for regulations governing the offset process prior   to

entering into offset agreements , and I assume that its
position will be reflected in the final version of the report.

                                      submi t legislative proposals

We agree that PHS should develop and
 to enable the Secretary to return money recovered from NHSC and

 PSA scholarship defaulters to the program and from HEAL

 defaulters to the SLIF rather than to the general fund of the

 Treasury .€
                                                                245-1870.€
 If you have any questions, please phone Elise Smith on 




                      Vi! €
 In €

 Pm €



                                 Martin H. Gerry

 mG.I €
  AIG-MP€
  OO/IG €

  EXSEO€
   DAT      SE        & :;9,

                                         .. .., ,.
                                          !/                                     .. =:'
                                                                                    -     :'",-
                                                                                             ..' .
                                                                                               /"




- ..."'crr.
 0(
                                                                               RECEiVEj?ea'th                  Care

              DEPARTMENT OF HEALTH & HUMAN SERVICES                     r.F   tV'" rlc"'.            fic   QCing Administration
                                                                                                      ' I L.
  .fL'
                                                                                            11... -..




:::::1.1. A2
      Date
                     5 199                                              I" '      :1
                                                                                       .:;J                           orandum
              Gail R. Wilensky, Ph.

                                   D.


      From Administrator

      Subject OIG Dra Management Adviory Report - ' 'Use of Medicare Offset Ageements
              and Exclusions for National Health Servce Corps and Health Education Assistance
              Loan Defaulters," OEI-02- 91- 00550

              Inpector General

              Ofce of the    Secretary


                  We have reviewed the subject draf management adviory report which
              exaes the use of Medicare offset agreements and exclusions on debt collection
              actties of the National Health Servce Corps (NHSC) scholarhips, Physician
              Shortge Area (PSA), and Health Education Asistace Loan            programs.   (H)
                 The report found that Medicae offet and exclusion procedures are not being
              employed against defaulters in the Deparent of Health and Human Servces
              scholarship and loan programs for students in the health professions. To date, the
              Public Health Servce (PHS), which is responsible for debt management activties for
              the loan progrms, has not yet          implemented the offet    procedure and has intiated
              the exclusion option against only one NHSC and         HE scholarship defaulter.
                  OIG specifcally recommends that HCF A take imediate action to implement
              offet procedures as authoried in Section 1892 of the Social Securty Act (the Act).
              HCF A concurs with this recommendation. However, PHS has not yet forwded
              any requests for offet or any loan or scholarhip defaulters offet          agreements to us.
              When PHS refers offset agreements to HCF A, we wi               process the Medicare offets
              under the Agency s current authority granted in Section 1892 of the Act HCF A
              publihed a proposed rule, BPO- 088P in the   Federal Register on November 6, 199
              to specifcaly address the Medicare offet agreements as descnoed in Section 1892
              of the Act. The final rule has been drafted and is being circulated for comment
              within the Agency.

                  Thank you for the opportunity to review and comment on this draft report.
              Please advise us whether you agree with our position on the report
              recommendation at your earliest convenience.


                      PDIG
                      DIG-
                      DIG-EI
                      DIG-
                      AJ.M
                       OGCIIG
                       EX SEC

      ' "'




 Department. of Health          and Human Servces€
         OFFICE OF€
    INSPECTOR GENERAL€




     USE OF MEDICARE OFFSET
 AGREEMENTS AND EXCLUSIONS FOR
  NATIONAL HEALTH SERVICE CORPS
AND HEALTH EDUCATION ASSISTANCE
         LOAN DEFAULTERS€




              " SERVICES

             t-€



                            Richard P. Kusserow
                            INSPECfOR GENERA
             ~1t"dla€
                                DECEMBER 1991€
                        OFFICE OF INSPECfOR GENRA

The mission of the Offce of Inspector General (OIG), as mandated by Public Law 95- 452 , as
amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carred out through a nationwide network of audits , investigations , and
inspections conducted by three OIG operating components: the Offce of Audit Servces, the
Offce of Investigations , and the Offce of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                            OFFCE OF AUDIT SERVICE
The OIG' s Offce of Audit Servces (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrng out their respective responsibilties and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse , and
mismanagement and to promote economy and effciency throughout the Department.

                            OFFCE OF INTIGATIONS
The OIG' s Offce of Investigations    (01) conducts crinal ,   civl, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative effort of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid     program.


                 OFFICE OF EVALUATION AN INSPECIONS
The OIG' s Offce of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress ,   and the public. The fmdings and recommendations contained in these inspection
reports generate rapid , accurate, and up- to-date information on the effciency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the New York
Regional Offce under the direction of Regional Inspector General Thomas F. Tully and
Deputy Regional Inspector General Alan S. Meyer. Project staff included:

REGION n                                                        HEUARTERS
Renee C. Schlesinger, Project Leader                            Maruta Zitans, Program Specialist
Dcmetra Arapakos
